<html>
<title> - [H.A.S.C. No. 111-50]ARMY NATIONAL GUARD AND AIR NATIONAL GUARD EQUIPMENT PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-50]
 
                      ARMY NATIONAL GUARD AND AIR
                   NATIONAL GUARD EQUIPMENT PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 5, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  
                  U.S. GOVERNMENT PRINTING OFFICE
53-570                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ELLEN O. TAUSCHER, California        JOHN C. FLEMING, Louisiana
ROBERT A. BRADY, Pennsylvania        MIKE COFFMAN, Colorado
JIM COOPER, Tennessee                HOWARD P. ``BUCK'' McKEON, 
JIM MARSHALL, Georgia                    California
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
ERIC J.J. MASSA, New York            MICHAEL TURNER, Ohio
BOBBY BRIGHT, Alabama
                  Doug Bush, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                 John Wason, Professional Staff Member
                      Ben Glerum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, May 5, 2009, Army National Guard and Air National Guard 
  Equipment Programs.............................................     1

Appendix:

Tuesday, May 5, 2009.............................................    25
                              ----------                              

                          TUESDAY, MAY 5, 2009
     ARMY NATIONAL GUARD AND AIR NATIONAL GUARD EQUIPMENT PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     5

                               WITNESSES

Carpenter, Maj. Gen. Raymond W., ARNG, Acting Deputy Director, 
  Army National Guard............................................     6
Wyatt, Lt. Gen. Harry M., III, ANG, Director of the Air National 
  Guard..........................................................    10

                                APPENDIX

Prepared Statements:

    Carpenter, Maj. Gen. Raymond W...............................    29
    Wyatt, Lt. Gen. Harry M., III................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. LoBiondo.................................................    45

Questions Submitted by Members Post Hearing:

    Mr. Abercrombie..............................................    49
     ARMY NATIONAL GUARD AND AIR NATIONAL GUARD EQUIPMENT PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                              Washington, DC, Tuesday, May 5, 2009.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Aloha, everybody. Thank you very much for 
coming today.
    This is a very crucial meeting, from our standpoint, in 
this subcommittee. Some of us have had longstanding questions 
and observations with respect to the Army National Guard (ARNG) 
and Air National Guard (ANG), both from the equipment 
perspective and personnel perspective as we have seen this 
transition going all the way back to Kosovo and Serbia and the 
whole redirection, if you will, of American military effort 
vis-a-vis the Guard and Reserve in terms of an operational 
force and the implications and consequences of that, over time.
    And we are particularly well served, I think, by having 
Major General Raymond Carpenter, the acting deputy director of 
the Army National Guard and Lieutenant General Harry Wyatt, the 
Director of the Air National Guard, because I think both of you 
have a long-term perspective on precisely these questions and 
their implication.
    Secretary Gates has adopted 82 recommendations from the 
congressionally mandated Commission on the National Guard and 
Reserves. One of those recommendations was to equip and 
resource the Guard and Reserve component as an operational 
reserve rather than a Cold War model of a strategic reserve. 
When I say Cold War model, that is a popular way of putting it, 
whether it was a Cold War or no Cold War, the Guard and 
Reserves' mission mandate and the understanding of what that 
was precedes the Cold War.
    And from my point of view, equipping and resourcing the 
Guard and Reserve as an operational reserve is not merely a 
logistical activity or a convenience for auditing purposes, 
economically or otherwise, but as a change in doctrine, 
fundamental doctrine, that deserves a much more extended 
conversation than we have had, inasmuch as virtually no 
conversation at all. And this hearing today I hope will provide 
at least some basis for that conversation because of the nature 
of the requirements associated with the change in direction in 
terms of equipment.
    The old strategic reserve model assumed very few 
mobilizations and assumed risk with inadequate equipping 
strategies, in my estimation. The change to an operational 
reserve status, coincident with the re-organization of the 
Army, has greatly increased the amount of equipment that the 
Guard and Reserve units are required to have, required not by 
us or a doctrine, per se, but required by the elements of the 
deployments to which the Guard and Reserve have been assigned, 
and are likely to be assigned in the near and distant future.
    While the Department is making improvements and progress in 
providing adequate funding to equip the National Guard to 
enhance its role as an operational reserve, there are a 
significant number of units that do not have the required 
equipment. Sustaining this funding and having the necessary 
transparency and accountability to the equipment, however, 
remains a challenge.
    That is a very mild way of saying that, while I think the 
Guard and Reserve can pretty well--and has pretty well 
calculated what its needs are, what its requirements are in 
terms of equipment, personnel, and training, I can't say the 
same for the Pentagon in terms of being able to even account 
for what it has done to this point. There have been tens-of-
billions-of-dollars of additional funding over the baseline 
pre-change in doctrine, but whether that has trickled down to 
the Guard and Reserve is not an open question.
    I believe that the record shows that it has not. The 
billions have dissipated, but not into the capacity of the 
Guard and Reserve to either have the equipment, have the 
personnel to complete training standards, let alone prepared to 
be deployed and redeployed.
    So the purpose of today's hearing is to get a 
straightforward assessment of the equipment needs of the Army 
National Guard and Air National Guard now, and in the context 
that these components are to be there as an operational 
reserve.
    The witnesses have been asked to lay out what equipment 
levels their organizations are required to have, how these 
requirements have changed, as well as what equipment levels 
they actually have on hand.
    General Carpenter and General Wyatt have also been asked to 
provide their views on the adequacy of the fiscal year 2009 
budget and, to the extent possible, given the constraints that 
prevail in the Pentagon today, to the extent possible the 2010 
budget request for equipping their elements. And we have also 
asked our witnesses to be prepared to provide a status of 
equipment readiness.
    Just having the equipment on paper or in reality does not 
necessarily coincide with the readiness component. There you 
have to include personnel as well as whether or not we are 
counting reset and depot or originated equipment, et cetera.
    So with that in mind, that is quite a task. There obviously 
are many elements that the military considers when it judges a 
unit combat-ready, equipment being key to it.
    Compared to other measures of readiness, equipment 
readiness is fairly straightforward. Either you have the 
equipment you need or you don't. Without the right type and 
amounts of equipment, even the most dedicated and experienced 
soldier or airman cannot train for combat or provide adequate 
assistance when there is a domestic emergency.
    So for a variety of reasons that today's hearing I hope 
will explore, the number of units in the National Guard that 
can report that they are at the highest level of equipment 
readiness has declined, at least in the judgment of the 
committee to this point. And it has declined since 2001.
    We also learned this week that this continues to be a 
problem for the entire Army. It is not just the National Guard 
that is having this difficulty. And while most Guard units 
deployed overseas have all the equipment they require, many of 
those units don't get all that equipment until just before 
deployment, in some cases after they deploy, and whether or not 
this constitutes the kind of readiness that you feel as 
commanders are required is another question I hope you will 
explore.
    At a minimum, it makes training to deploy difficult. Given 
the operational reserve equipage model, a large percentage of 
non-deployed Army National Guard units are far below Army 
standards for equipment on hand in terms of the statistics that 
I have seen to this juncture.
    In addition, the Army National Guard forces that deployed 
to Iraq in 2002 and 2004 left much of their equipment in-
theater for follow-on forces to use if that was, in fact, able 
to be done. I know you could leave it, but whether it was 
usable is another story. It is unclear whether that equipment 
will be replaced, and I hope you will be able to speak to the 
question of whether it was usable, or to the degree it was 
usable, and for how long.
    This is particularly an important question, gentlemen, 
because we are now talking of redeploying forces and equipment 
to Afghanistan and perhaps other areas adjacent to Afghanistan.
    Aging aircraft continue to be a critical issue for the Air 
National Guard. The Air National Guard aircraft are, on 
average, 28 years old, with the KC-135 tankers, need I say, 
averaging 48 years at this stage.
    If the problems of equipment shortages and aging equipment 
persist, National Guard units, while dedicated and willing--and 
I take that as a stipulation we will have no trouble in 
sustaining--no matter how dedicated and willing, they may 
simply not be able to adequately respond to domestic 
emergencies, let alone trade in for combat.
    And I don't want to underplay the domestic emergencies. You 
don't have to think of Katrina as being only a once-in-a-
lifetime proposition to think about what domestic emergencies 
constitute--tornadoes, hurricanes, earthquakes. I suppose we 
are going to get the locusts soon.
    At least what this new president is facing, that seems to 
be next. When you are re-naming flu, you know that you are at 
the crisis stage.
    No amount of dedication or desire or willpower can overcome 
a lack of transportation, communication and construction 
equipment when a National Guard unit is trying to help people 
hit by one of those tornados or those hurricanes or floods, et 
cetera.
    Congress has not hesitated in trying to address the 
equipment readiness shortfalls. For purposes of the record and 
for those who are new members to the committee, this 
subcommittee, and subsequently the full committee, was 
instrumental in seeing a reallocation of funding, close to $1 
billion, in the last go-round, a reallocation within the Army 
of funds that could not usefully be spent in certain areas of 
research and development.
    We were able to get that money transferred to the National 
Guard. But that was, in my judgment, the proverbial drop in the 
bucket compared to what was needed, but we were happy, 
nonetheless, to get at least that amount of money over to you.
    So we have tried to address the readiness equipment 
shortfall, and since 2001, then, the Congress has provided 
almost $11 billion above what was in the previous 
administration's budget for funding--$50 billion altogether has 
been provided for equipment since 2001.
    On the surface, that seems like an awful lot. But as I have 
indicated in the previous portion of my remarks, I hope you can 
account for where that $50 billion went, because I don't see 
much of it showing up in your immediate equipment account.
    We provided $2 billion--Congress, that is to say, has 
provided $2 billion to the Guard and Reserve in a separate 
dedicated funding account over the past two years. Again, 
please forgive me. Those of you who have been on the committee 
for a long time, you are well aware of that.
    But as I say, we have new members here, and the public may 
not be entirely aware of what we are doing. That is the reason 
for the length and the depth of these remarks.
    I say to both of you gentlemen not because I don't expect 
that you know it, but I want to make sure that it is on the 
record and people who may be observing are fully informed. So 
we have put $2 billion in a separate dedicated funding account, 
and I have an idea that we are going to have to do a lot more 
of that upcoming.
    So this funding has enjoyed sustained bipartisan support 
both on this committee and throughout the Congress. I want to 
commend Mr. LoBiondo in particular for his attention in these 
areas. And I can tell you that it is good to have people on the 
committee who have sustained their interest over a long period 
of time, as he has.
    So we made some progress then in terms of funding and re-
organization, but I am hoping that, as a result of the 
testimony today, we are going to have the foundation to be able 
to come into this next defense bill and really concentrate on 
Guard and Reserve requirements, using equipment as the taking-
off point for what we do.
    So what we want to find out today, then, is exactly how 
equipment funding that has been provided has been used to 
address equipment shortfalls. Where did the money go? What 
progress has been made on improving visibility of tracking 
equipment requirements through budget preparation and review?
    That is what we have to do right now. You can be very 
helpful to us today. We have to be able to tell the committee 
as a whole, and then the appropriators and the Congress as a 
whole, exactly what we need to do to see to it that the Guard 
and Reserve are prepared to do what we have been requiring them 
to do up till now, and I have no doubt are going to require of 
them in the immediate future.
    We need to be able to know what the funding allocation 
should be and, ultimately, how we should direct the 
distribution of equipment, if necessary, in the defense bill 
itself.
    We want to know why equipment readiness rates continue to 
remain very low for many non-deployed units despite significant 
additional funds having been provided. No sense in us just 
putting the money out there, both authorized and appropriated, 
if it is not really getting to you in a way that proves useful.
    So, for example, how much of the $50 billion in funding 
since 2001 has actually been used to provide additional 
equipment for you in a way that is useful and immediate? Has 
the funding been used for the intended purposes, or has it 
dissipated?
    Regardless of what the reasoning is, or was, has it been 
dissipated? And finally, then, for the 2010 budget, what needs 
to be done by this subcommittee, our full committee and the 
Congress, to address this problem either through legislation or 
funding?
    I am grateful to you and to the members for this rather 
extended commentary at the beginning. I don't generally want to 
do it. But I thought it was so important that we have on the 
record, both for the new members and the public, exactly what 
was at stake that I took a little bit more time than I 
ordinarily would have liked.
    And with that in mind, I am looking forward to the 
commentary and observations of my good friend and someone who 
has the long-term perspective on what this is about, because 
even though I have mentioned Mr. LoBiondo favorably, I can tell 
you that Roscoe Bartlett was on this issue.
    I remember, very, very well when I was sitting way down at 
the other end of this podium now, and in fact, I think it was 
probably Curt Weldon and Roscoe Bartlett that first brought to 
everybody's attention on the committee what the implications 
for the National Guard and Reserve might be way back in the 
early 1990's.
    Roscoe.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you very much, Mr. Chairman, for 
holding this hearing.
    And to our witnesses, welcome. And thank you very much for 
your service to our country, and we are happy you are with us 
today.
    The Army National Guard predates the founding of our Nation 
and a standing military by almost a century and a half, and is 
therefore the oldest component of the United States Armed 
Forces. America's first permanent militia regiment among the 
oldest continuing units in history, were organized by the 
Massachusetts Bay Colonies 1636. Since that time, the Guard has 
participated in every U.S. conflict to include current 
deployment in support of Operation Enduring Freedom and 
Operation Iraqi Freedom.
    Today's National Guard and Reserve personnel continue the 
long tradition of protecting our Nation, and they do so in a 
magnificent manner. As you know, Mr. Chairman, the National 
Guard is no longer considered a strategic reserve. It is now 
considered an operational reserve.
    From an equipment perspective, I absolutely agree that, if 
we are going to continue to expect so much from our Reserve 
forces, then we not only must--not only must we properly equip 
them, but we must equip them with modern equipment. Army 
National Guard equipment funding has increased substantially 
since the late 1990's, where it was in the hundreds-of-
millions-of-dollars to billions-of-dollars today.
    To be fair, the Army has made significant progress in 
equipping the Army National Guard, but more progress is needed. 
For example, in the early 2000s, the Guard had approximately 
1,500 medium tactical vehicles. Today, almost 10,000.
    While I certainly support the increasing equipment funding, 
I have two concerns. First although equipping accounts have 
increased, they have increased as a result of supplemental 
appropriation bills. The supplementals go away, we must ensure 
that the National Guard continues to get proper funding in the 
base budget.
    Second, given the tremendous increase in funding for the 
Guard, Congress and our Chairman has really emphasized the 
importance of this--was that full transparency into how the 
Guard requirements are being met and clear processes in place 
in order to know where all this equipment is going.
    I look forward to hearing from our witnesses today, and I 
want to thank you again, for your service to our country and 
for appearing before us this afternoon.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you, Mr. Bartlett. And for the 
record, you were not there originally, were you, when that was 
first formed? I know----
    Mr. Bartlett. My father was.
    Mr. Abercrombie. Okay. All right.
    So we will go to the panel now, and then go to questions. 
And we are going to do the questions in, I think it is reverse 
order of seniority today. But without objection, all witnesses' 
prepared statements will be included in the hearing record, so 
you need not read it word for word. And if you care to 
summarize and-or respond, even in part to some of the opening 
remarks, please do so.
    And with that, I think we will go right to General 
Carpenter. And welcome.

   STATEMENT OF MAJ. GEN. RAYMOND W. CARPENTER, ARNG, ACTING 
              DEPUTY DIRECTOR, ARMY NATIONAL GUARD

    General Carpenter. Thank you, Chairman Abercrombie, Ranking 
Member Bartlett and members of the committee for the 
opportunity for us to appear before you today. It is my honor 
and distinct pleasure to represent some 366,000 Army National 
Guardsmen, many of who are on point for our Nation as we speak 
today in this hearing.
    I also have the pleasure of representing my retiring boss, 
soon to be retired boss, Lieutenant General Vaughn. I refer to 
him as a plain-speaking Missouri Guardsman, and to his credit, 
I think that he can take credit for a lot of what has happened 
here in the Army National Guard here in the past four years 
over his tenure.
    If you will indulge me for a moment, sir, I would like to 
recognize someone that is sitting directly behind me. And that 
recognition is in commitment to the service and willingness of 
the great sacrifices on behalf of our Nation that the non-
commissioned officers (NCOs) in the Army and the Army National 
Guard make on a daily basis.
    The Secretary of the Army has established 2009 as the Year 
Of The NCO. The U.S. Army's Non-Commissioned Officer Corps has 
distinguished itself as one of the world's most accomplished 
group of military professionals.
    With me today is Staff Sergeant Marquez. She is a member of 
the NCO Corps of the Army National Guard. She joined the 
California Guard in 2000 at the age of 17. In 2004, she 
deployed to Camp Victory in support of Operation Iraqi Freedom. 
She is currently a Virginia National Guardsman and, by the way, 
served in support of--most recently in support of the 
inauguration.
    She is an NCO, Operations NCO in our operations division 
here in the Army National Guard. She has been married for a 
little over two months. She married a Marine Corps staff 
Sergeant, Sean Jeanus, who is currently deployed into 
Afghanistan. So, sir, I would like to have Sergeant Marquez 
stand and be recognized for her service as an NCO in the Army 
and the Army National Guard.
    [Applause.]
    Mr. Abercrombie. Sergeant Marquez, aloha, and welcome. And 
I see you are still smiling. Two months of marriage, and you 
are not quitting yet. Good for you.
    Sergeant Marquez. It is perfect, sir. He is gone.
    Mr. Abercrombie. There are some people that wish the same 
thing about us.
    General Carpenter. Sir, thank you for your introductory 
remarks. We believe you are right on target.
    Over the last four years, the Army, the Army National Guard 
and the Army Reserve has set about the task of equipping the 
Reserve components and hopefully moving closer to what we call 
an operational reserve. And frankly, in many cases, that isn't 
an operational reserve. It is a strategic reserve on steroids, 
as my boss likes to refer to it.
    We have been fortunate to have been the recipients of 
generous equipment funding that has been provided by this 
committee by Congress, and NGREA, National Guard Reserve 
Equipment Account, has been part and parcel and key to that 
equipping piece. We have used that account specifically to buy 
what we call Critical Dual-Use equipment, CDU equipment, and 
that equipment, by definition, is equipment that can be used in 
the war fight and can also be used for emergencies and 
disasters for our homeland defense and security mission.
    We have seen some great strides here in equipping the Army 
National Guard. You may have read recently where the Secretary 
of Defense made some remarks in a number of war college 
locations a couple weeks ago. And one of the remarks that he 
made was that the Army National Guard had 70 percent of its 
equipment prior to 9/11, and we are striving to get back to 70 
percent as we move forward.
    But the difference is is that the type of equipment we had 
prior to 9/11 was, for the most part, cascaded equipment that 
came from the Army, not modernized, and much of it not 
deployable. To the Army's credit and to this committee's 
credit, we will retire our last Huey helicopter this year. We 
have had that helicopter in our inventory for four decades.
    And through the funding and process and modernization, that 
helicopter has been replaced by the Black Hawk helicopter and 
the light utility helicopter (LUH). And again, the success of 
that is those Huey helicopters will be gone from our inventory 
this year.
    We have seen the deuce-and-a-half, the 2.5-ton truck that 
was the main staple for us in the Army National Guard for many 
years, will be retired out of our inventory by the year 2012. 
We have seen M60 machine guns, which is the legacy machine 
guns, transition to the M240 machine guns, the modernized 
version, and we will have those make up the bulk of our 
inventory by the close of this year.
    The vehicular radio component (VRC-12) radio, which again 
is a Vietnam legacy radio, has been retired out of our 
inventory. So there have been some great strides made in the 
modernization piece for us as we go forward into the 21st 
century here and support not just the war fight, but also 
support our emergency and disaster mission. And that is 
critical to us.
    Sir, as you know, courtesy of the recent storms in Hawaii, 
Hawaii Guardsmen responded to that, and they were on duty for 
almost a month in support of the citizens of Hawaii. In the 
Kentucky ice storm, we had soldiers--the entire Kentucky 
National Guard was mobilized and responded to that particular 
disaster. We had soldiers who came back from the 39th Brigade 
from Arkansas, got off the airplane, and in a relatively short 
period of time were assisting the citizens of Arkansas in that 
particular disaster.
    And so, in the National Guard, our responsibility is to be 
able to fight tonight, and that fight is in the homeland. And 
that homeland mission has to do with responding to the needs of 
our citizens in emergencies and disasters, whether it happens 
to be a storm in Hawaii, a flood in North Dakota, a fire in 
California, or a hurricane in the hurricane states of 
Mississippi, Texas and Louisiana.
    So, where are the holes at with regard to our equipping 
process right now? We have made, as I mentioned, huge strides, 
but we still have some work to do in the truck fleet, both in 
modernization and in filling the holes, battle command 
equipment, and a lot of the combat service support equipment we 
still have a requirement. Whether it be generators, material 
handling equipment, water purification systems, and even 
tactical ambulance that serve both a homeland mission and a war 
fight mission, these requirements remain unfilled in many 
cases.
    You discussed briefly transparency. That has been a huge 
issue for us in the Army National Guard. And I think a little 
bit of that had to do with the frustration of what you just 
described in that money was appropriated, but we didn't see a 
response immediately with regard to the equipment that came to 
the National Guard.
    Part of that has to do with the process that it takes in 
terms of equipment acquisition. Many times, the appropriation 
was at the end of the fiscal year, and it takes, in some cases, 
up to two and a half years to acquire some of these pieces of 
equipment, especially the more complex modernized truck fleet 
and some of the helicopters.
    So even though the appropriation was, for instance, in a 
2007 budget, we may not have seen, or may not see that piece of 
equipment in our inventory til perhaps mid-2009 or perhaps even 
as late as 2010.
    And so the frustration was how do we keep track of what was 
appropriated and what was showing up in our bullpens and our 
vehicle storage areas in the Army National Guard? And as my 
boss is likened to say, he said, ``It is like writing a check 
for $100 in 2007 and then asking what did I buy in 2009,'' and 
you can't get an answer.
    Well, thankfully, transparency has become a huge issue and 
has received a lot of emphasis. The Army has put forth a great 
effort in conjunction with the Reserve components in the Army 
National Guard, and we have a pilot program that involves 75 
percent of the money that was appropriated in 2007, 2008 and 
2009. And the effort here is to try and at least reconstruct 
what we can from those previous years' appropriations to 
identify what we think we have received and what we have yet to 
receive.
    That pilot is to report out in July, and that pilot should 
give us a little bit of an indicator of exactly where we are 
at. We are pretty confident that it is headed in the right 
direction. It is not there yet, and I would encourage you to 
continue to ask questions about transparency as we go forward.
    But suffice to say the Army and the Army National Guard and 
the Army Reserve have made great strides in the right direction 
to account for the appropriated dollars that you all have been 
generous enough to make sure that that National Guard has the 
equipment that we are supposed to have.
    The reset piece you mentioned earlier, our issue is to try 
and make sure that the equipment that comes back to us in fact 
is functional and operational. And to that extent, we have 15 
brigade combat teams and 131 other units in the Army National 
Guard that require reset in fiscal year 2009. Right now, there 
is money programmed for us to be able to do that reset. It just 
needs to stay on track and to ensure that we have the funding 
for the work that has to be accomplished.
    You also mentioned the equipment that was left behind in 
Iraq in 2003, 2004, 2005. Honestly, the reason that equipment 
was left behind, because it was the most modernized equipment 
that the Army National Guard had. And that was the reason why--
it was the kind of equipment that was needed to continue the 
war fight over there. This is separate from the battle losses 
and the damaged equipment that we saw with regard to our units.
    The amount of equipment that we left behind, the estimated 
value was somewhere around $3 billion. We received an 
appropriation of $1.7 billion to offset that, and we continue 
to work with the Army in terms of identification of what the 
requirement is and the future funding to replace that 
equipment.
    Suffice to say, we still have a ways to go, and we are 
working through that. Our biggest concern, however, is what 
happens in Afghanistan, because we are about to face the same 
situation. We have a landlocked country where it is very 
expensive to haul the equipment in and out, and it makes more 
sense to leave equipment there.
    And so we just need to make sure that there is a proper 
accounting for the Army National Guard equipment that we are 
required to leave behind in Afghanistan. And again, we are 
working with the Army and the Department of Defense (DOD) to 
figure out the correct process and compliance with DOD 
instruction 1225.6 to meet that requirement.
    Sir, that concludes my opening remarks. Thank you for 
indulging me with my NCO introduction. And I look forward to 
your questions.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 29.]
    Mr. Abercrombie. Thank you.
    General Wyatt, welcome and aloha to you.

STATEMENT OF LT. GEN. HARRY M. WYATT III, ANG, DIRECTOR OF THE 
                       AIR NATIONAL GUARD

    General Wyatt. Thank you, sir.
    Chairman Abercrombie, Ranking Member Bartlett and members 
of the committee, thank you for inviting me to appear before 
you today representing the men and women of the Air National 
Guard, some 106,752 strong.
    Mr. Chairman, I appreciate your comments opening the 
meeting today, and I would agree right on target. I also 
enjoyed the comment of Ranking Member Bartlett on the history 
of the National Guard. Thank you for recognizing the age of our 
institution.
    Along those lines, if I could share a little history also 
with you, sir, in 1909, the U.S. Army Signal Corps purchased 
the world's first military aircraft, the Wright Military Flyer, 
for $30,000. One hundred years have passed, and our aviation 
equipment has become more reliable, lethal, complex and, 
unfortunately, costly.
    Even so, I cannot imagine our world today----
    Mr. Abercrombie. Excuse me, General Wyatt, excuse me. Was 
there a protest at the time?
    General Wyatt. No, sir.
    Mr. Abercrombie. And did the Government Accountability 
Office (GAO) get into it?
    General Wyatt. I think there was only one manufacturer at 
the time, so probably not.
    Even so, I cannot imagine our world today had that event 
100 years ago not taken place. As we meet today, your Air 
National Guard airmen are proudly and admirably protecting 
skies with more than 3,000 members and 16 of 18 air sovereignty 
alert sites. They are ready to respond to disasters like 
hurricanes, tornadoes and fires that the chairman referenced 
earlier.
    They are volunteering at unprecedented rates to support 
worldwide contingencies. And the backbone of our force, our 
traditional Guard members, are providing a critical surge 
capability for our Air Force.
    Our Air National Guard airmen would not be able to do any 
of this without the support that we have received from you, 
Chairman Abercrombie, and the members of this committee. 
Through your support of the National Guard and Reserve 
equipment appropriation, we have been able to seamlessly 
integrate into the total Air Force while providing critical 
capabilities to the Nation's governors.
    Our top issues--I think these come as no surprise to the 
committee. First of all, modernize and recapitalize the aging 
Air National Guard fleet of aircraft to bridge the gap in mid-
term Air Force capability and long-term expeditionary 
viability. An aging fleet requires more maintenance, which is 
one of our core competencies.
    But it also requires more parts and more fuel. All eat away 
at already stressed readiness accounts, and perhaps some of 
that goes to answer the Chairman's question on declining 
readiness.
    If we do nothing to accelerate our recapitalization, you 
can expect more safety issues, perhaps more failed inspections, 
less combat capability, and mission gaps. It is essential that 
Air National Guard recapitalization and modernization occur 
proportionately, concurrently, and in parallel with the total 
Air Force. Otherwise, mission gaps will cascade across our 
force, leaving many Air National Guard units without a mission.
    Our Air National Guard aircraft are, on average, 28 years 
old. F-15s are 29 years old, C-5s are 36 years old, KC-135s, 48 
years old, as the chairman referenced. And if the F-16 fleet is 
not recapitalized soon, 80 percent will begin to reach the end 
of their service life in less than 8 years.
    You are well aware of the challenges that the U.S. Air 
Force has in modernizing and recapitalizing its fighter and 
refueling fleets. We have been working closely with the Air 
Force in their planning. But to date, there are no firm plans 
to replace the Air National Guard F-15 and F-16 fleets 
currently protecting our skies.
    Past history would show that usually, when the Air Force 
recapitalizes its fleet, there is available for cascade legacy 
aircraft, or older aircraft, to the Air National Guard. That is 
no longer an option, as many of the aircraft in the active duty 
fleet are approaching the same ages as those in the Air 
National Guard. It is just that the Air National Guard has a 
greater percentage, and our aircraft are older.
    Because of the characteristics of the Reserve component, 
our part-time force, it is essential that equipment changes be 
planned well in advance, a lesson learned during the base 
realignment and closure (BRAC) processes. Over the last several 
years, Congress has been very helpful in supporting the Air 
National Guard's Active Electronically Scanned Array, the AESA 
radar, modernization program. This program allows us to meet 
today's threats and bridge capabilities to the next generation 
of fighter aircraft.
    AESA is important to improve both capability and 
sustainment. Recently, a Cessna 172 was stolen in Canada. That 
entered the U.S. through Canada, and entered U.S. airspace in 
a--had it entered in a high-traffic area, such as New York, it 
would have been very difficult for the older F-16s with their 
older radar to find, identify and track it with the equipment 
that they have on board today.
    The aging KC-135 fleet, which was used from Alabama in this 
intercept, is an issue that the Chairman has referenced. But in 
addition to the aircraft, we need to recognize that Air 
Sovereignty Alert (ASA) and many of the things that the Air 
National Guard does here in the United States of America is a 
system of systems, and all of the systems, each piece of those 
systems, shows its age.
    As we equip our Air National Guard, we have to keep in mind 
the essential 10 capabilities that our governors need available 
to handle present and future threats. The National Guard Bureau 
is committed to the fundamental principle that each and every 
state and territory must possess these 10 core capabilities for 
homeland readiness.
    We want to ensure that every governor has each of these 10 
essential capabilities: command and control, civil support 
teams, engineering assets, communications, ground 
transportation, aviation, medical, security forces, logistics 
and maintenance. We continue to leverage approximately 98 
percent of the equipment within the Air National Guard as 
critical dual-use equipment to make certain that these 
capabilities are available for not only the combatant 
commanders in our Air Expeditionary Force (AEF) rotations, but 
also the governors.
    Our expeditionary combat support capability has allowed our 
Air Force to sustain critical support to overseas contingency 
operations. We cannot allow their readiness and availability to 
degrade because of equipment challenges.
    Some of the examples include our security forces have a 
shortage of weapons due to depot delays. Our communication 
networks need modernization. Civil engineers have shortfall of 
depot-funded emergency management equipment. And our 1950's 
vintage deployable air traffic control radars face significant 
challenges in procuring and replacing vintage test equipment 
and parts.
    These shortages affect not only our readiness for war, but 
our readiness to respond to domestic crisis.
    Mr. Chairman, I thank you for your time and support of our 
Air National Guard, and I stand ready to answer your questions.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 35.]
    Mr. Abercrombie. Thank you very much, General Wyatt.
    We will go to questions in reverse order of seniority, with 
this observation: General Carpenter, Secretary Gates may take 
some comfort, or measure of comfort, in the observation about 
70 percent equipment being available as compared to 9/11. I 
don't take comfort in that at all. That is what he has got to 
stretch for to try and come with a ``positive'' statement.
    We have a real serious problem. Almost a decade has passed 
since then. That doesn't take into account recapitalization and 
modernization or what the status of the equipment was at that 
point pre-9/11. I only need to reference General Wyatt's last 
comment about radar equipment, let alone parts. And then, we 
are only at 70 percent.
    So I think I am not--I suppose that was meant to comfort 
us, but it has had the opposite reaction on me. You needn't 
comment on it. I am just making that observation.
    And we will move to Congressman Wilson, to be followed by 
Congressman Kissell, and then Mr. Hunter.
    Mr. Wilson. Thank you, Mr. Chairman.
    And General Carpenter, General Wyatt, thank you very much 
for being here. I am really proud of both your service, and the 
Guard in general. As a 31-year veteran of the Army National 
Guard, I have really never been prouder of what the Guard's 
doing.
    As I visit, the professionalism, the competence, 
capabilities, the dedication, esprit de corps has never been 
higher. I also am particularly grateful that my former brigade, 
the 218th Brigade, completed last year, a year serving in 
Afghanistan.
    And I can report to you that my former colleagues are just 
so grateful for what they see as an opportunity to defeat the 
terrorists overseas to protect American families at home. And I 
am just so proud of what they have done.
    And then, I am particularly grateful that my oldest son 
served in Iraq with the field artillery. He is now Judge 
Advocate General (JAG). My third son is a signal officer with 
the Army Guard, and he has just transferred to logistics. And 
then, our fourth son just joined the Army National Guard. He is 
simultaneous drilling with Army Reserve Officers' Training 
Corps (ROTC).
    And I know the reason that they joined, and I did have one 
son off-track. He is a doctor in the Navy who served in Iraq. 
But the reason that my wife was successful training these guys 
to do well is because we would meet Guard members at Army or 
wherever, and my sons were impressed by the people they met and 
wanted to serve with.
    And I do have to point out, with the Air Guard, I was 
honored to be on a delegation for the 64th anniversary of the 
invasion at Iwo Jima. And General Wyatt, you would be very 
proud that, as we were coming into the Japanese air station, 
they had one picture taped to the window, and it was an F-16 of 
the Swamp Fox Squadron, Air National Guard McEntire Joint Air 
Base, signed by Dean Pennington. And so you are appreciated 
around the world.
    I also want to point out how much the people of South 
Carolina depend and appreciate on the Guard for our annual 
concern that we have about hurricanes. And so the Guard has 
just been instrumental for evacuation, for recovery relief, and 
tornadoes. And then, General, you mentioned ice storms. On the 
rare occasion that we have snow or ice, the National Guard is 
there.
    As I point this out, the equipment is always a concern. And 
I appreciated that you pointed out, General Carpenter, that 
there was the cascaded equipment, and that is what I used. And 
it was pretty good, but having served at the National Training 
Center nine years ago, I am very pleased that we have modern 
equipment now. Everything has been superseded by multiple 
generations of much better equipment.
    But as we have equipment that is declared excess in Iraq or 
anywhere in the theater, do our adjutant generals have the 
ability to try to put in a bid for this?
    General Carpenter. First of all, sir, thank you very much 
for your service. The 218th Brigade, as you probably remember, 
we shared their farewell ceremony as they left to do the Task 
Force Phoenix mission in Afghanistan. And they were in a 
particular situation where the mission was being expanded from 
not just mentoring the Afghan National Army, but mentoring the 
Afghan National Police. And they just did an absolutely great 
job, and we are very proud of their service at a national level 
also.
    With regard to your--excuse me, sir, what was your question 
again?
    Mr. Wilson. The question would be as to equipment that 
could be declared excess, do our adjutant generals have the 
ability to at least make the request?
    General Carpenter. Sir, I have been involved in a couple of 
the sessions with regard to what is the strategy for equipment 
as we see the off-ramping in Iraq. And the Army's position 
across the board is that, if the equipment is not excess, the 
Army is adamant--and that means excess both to the Army and the 
Army National Guard across the entire Army--if it is not 
excess, we want it brought home, and we want it--if it is in 
some state that can be repaired, absolutely. And that equipment 
then is scheduled for distribution back to the Army units and 
back to the Army National Guard units, sir. So that is the 
position.
    Now, understanding that what happens on the ground over 
there is going to be dictated by the situation, but, for the 
most part, that is the going in rule here as we off-ramp and 
deal with the equipment that is in Iraq.
    Mr. Abercrombie. You have one minute, Mr. Wilson.
    Mr. Wilson. And a proverbial problem is maintenance of 
armories. And so often, that is dependent upon state general 
assemblies and state government funding. What can be done to 
help back up the proverbial ``leaking roofs'' of armories? Is 
there a plan to help fund renovation of armories?
    General Carpenter. Sir, the Army National Guard received 
upwards of $200 million in the economic stimulus package 
recently, and that package was designed specifically to deal 
with those kinds of things, what we call maintenance and repair 
as well as environment upgrades for lighting, heating and those 
kinds of utility efforts there. So it is not going to solve the 
problem entirely, but we understand the requirement, and we 
continue to make the case to the Army.
    Mr. Wilson. Thank you very much.
    Mr. Abercrombie. Thank you.
    Mr. Kissell, five minutes.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, Generals, for being here, but I especially 
want to recognize Sergeant Marquez for your service and just 
recognition that NCOs are certainly the backbone of the 
service. And thank you so much, and congratulations on your 
marriage. And hopefully you will get together here pretty soon.
    The service that the Guard provides us is so important. On 
April the 14th, I had the opportunity to be in Fayetteville, 
North Carolina, to watch the 30th Heavy Tactical Brigade 
deploy, 4,000 soldiers, West Virginia, Colorado, but mostly 
from North Carolina. And I watched those men and women getting 
ready to go serve our country was just a special moment.
    We worry about trying to figure out how to fight the next 
war instead of the last war. And I worry, based upon what we 
are looking at today in this hearing, that we may be trying to 
get ready to fight the next war using the last war's equipment, 
or no equipment at all.
    As we look at these percentages, and we can get lost in 
percentages, but how much--what percentage of the equipment do 
we need, do we have now to train with? And roughly what 
percentage of that would be modern equipment that would 
actually be something they could expect to use in theater?
    General Carpenter. Sir, from the Army National Guard, right 
now, the fill of equipment across the formations in the Army 
National Guard is 76 percent. Now, of that 76 percent, 13 
percent of it is either deployed, in reset, or being prepared 
to deploy. And so available to the governors right now is 63 
percent of all the equipment.
    The subset, the critical dual-use equipment I talked to 
earlier, there is 65 percent of that equipment available for 
the Army National Guard and the governors for use in the 
homeland mission. Our goal is to get to 100 percent fill on the 
critical dual-use equipment.
    Mr. Abercrombie. Excuse me, General. Just for everybody's 
information, you are talking about critical dual-use at this 
stage, right?
    General Carpenter. Yes, sir. Critical dual-use equipment, 
the governors have in hand right now 65 percent as an average 
across all the states. And so there is still 35 percent of that 
equipment that is not available for them.
    We are over our end strength of 100 percent. And so if you 
call a unit, like the 30th out of North Carolina, for instance, 
for an emergency and disaster mission and they have only got 65 
percent of their equipment and 100 percent of their soldiers, 
it leaves you asking the question, what capability do you not 
have by not having that other 35 percent of the equipment.
    So we do have those percentages available for use. Now, in 
the case of the 30th, when they got ready to deploy and went 
through the mobilization process, they were filled to 100 
percent of the requirement that they needed to deploy overseas. 
And by the way, they go on mission in Iraq mid-month, and we 
are very proud of their accomplishments.
    Mr. Abercrombie. You still have a minute and a half.
    General Wyatt. Do you want me to answer that from the air? 
Yes, sir.
    The Air National Guard has been, I think of all the seven 
Reserve components, has probably been integrated and resourced 
by our parent service perhaps a little bit better than the 
other Reserve components. We have been rotating overseas with 
the Air Force and AEF rotation since the early 1990's.
    But when we talk about the critical-use equipment, you are 
right. The percentages are a little misleading because, in the 
Air National Guard side, even though our percentages are 
higher, 84 percent across the country of our critical-use 
equipment, dual-use equipment, a lot of that is very old.
    Forty percent of our vehicles are past their service life, 
and it is only due to the great maintenance competencies of the 
Air National Guard that we are able to keep those vehicles 
running. The radar systems that we talked about earlier are 
old. They are decrepit, but because we have got some geniuses 
working the maintenance on those systems, we are able to keep 
them running.
    But we are at that period of time where we have just about 
exhausted our capabilities to keep that equipment going. The 
war fighting equipment, the jets, the deployable equipment, we 
are fielded at a pretty good rate. But again, a lot of that is 
extremely old.
    We talk about some of the new emerging systems, like air 
support operation squadron's tactical air control party (TACP). 
We have not yet been fielded the equipment to the levels that 
make them combat ready. And without the proper amounts of 
equipment, we can't get them trained to the point where they 
can be deployable.
    Same thing would be true of our air operation centers 
(AOCs). We need some more training equipment to make sure that, 
when a call comes, that we are able to answer the call of our 
country.
    Mr. Abercrombie. Thank you, General Wyatt.
    Gentlemen, perhaps you can give us a little bit more of a 
breakdown of what the 65 percent, or the 45 percent means. You 
may have a full complement of pens and pencils, but you may 
then have ten percent of what you need in vehicles or rifles or 
whatever.
    So maybe we need a little bit more definition, if you will, 
as to how that breaks down within the percentages. As Mr. 
Kissell said, there are statistics, and then there is 
information.
    Mr. Hunter left, so next will be Mr. LoBiondo. I am 
sticking to the five minutes, by the way, because I am told we 
are going to have votes coming up, and it is liable to be a 
long series.
    Mr. LoBiondo. Thank you very much, Mr. Chairman, for 
holding this hearing and for your close attention to details.
    Gentlemen, thank you for your service to our Nation.
    General Wyatt, I was going to spend a few minutes in an 
opening statement talking about the ASA mission and the Air 
National Guard, but you did a good job, I think in your 
statement, covering this. And I, like my colleagues, and 
especially Mr. Wilson, are just amazed at the dedication and 
the incredible job the men and women of the Air Guard are 
performing.
    You talked about the problem with equipment, and we call it 
a fighter gap. We call it a bathtub. There are a lot of 
different names. And you articulately used the numbers of the 
80 percent, the number of years and the hours, but what is the 
plan? We have had hearing after hearing, year after year, where 
the problem is recognized by more and more people.
    And I bothered the Chairman out in Hawaii during the break 
because we had gotten some additional information--and that is 
why I am especially appreciative, Mr. Chairman, of your doing 
this hearing--that we are just not getting any answers. So we 
are understanding the problem better, but each day, the clock 
ticks.
    Is there an interim buy that is planned? At what level are 
the discussions taking place? What level of comfort can we as 
members take to when we will see a plan?
    General Wyatt. Mr. Abercrombie, I hope that when the budget 
is released, we will be able to give a little more detail and a 
little more fidelity to an answer.
    My concern is this: we know the problem. We have recognized 
the problem. The position of the Air National Guard is that--I 
would like to refer to it as flying a cautious formation with 
the United States Air Force. The Air Force has a 
recapitalization plan that involves fifth-generation airplanes.
    We think that if the United States Air Force, depending 
upon the analysis of the recommendations made by the Secretary 
of Defense, we think that the solution rests with the United 
States Air Force. If they will write the Air National Guard in 
to their recapitalization plan early in sufficient numbers, we 
can address some, but not all, of the fighter gap. We will rely 
upon a cascade of some legacy aircraft from the active duty Air 
Force to the Air National Guard to help with the problem.
    But we are flying a cautious wing formation in that we 
recognize that, in order for that plan to be successful, there 
would have to be sufficient numbers of jets purchased, fielded 
to the Air Guard early as opposed to the current plan, which is 
late. And if there are any delays in production or shortages of 
capability, we need to have a backup plan.
    And the Air National Guard has been, and continues, to 
examine plans such as service life extension programs (SLEP) on 
our F-16s and, to some degree, our F-15s. Not just for the 
airframe, which is the immediate problem, but if you service 
life extend those jets, you need to also consider that we use 
these jets not just for ASA, for the Air Sovereignty Alert, but 
they are a critical part of the Nation's defense overseas and 
need to be fully integrated into the capabilities of the fifth 
generation.
    So as you--airplanes, you also need to improve ASA radars, 
sensors, gateway communication systems so that you don't lose 
the dual use, if you will, of those jets, the ASA and the 
operations overseas. We are also keeping open our options to 
take a look at fourth-generation fighters.
    But I would caution against a fleet separate and distinct 
from the Air Force, whichever way the Air Force decides to go.
    Mr. LoBiondo. Well, I certainly would agree with that.
    Can you share with us your personal opinion about an 
interim buy of 4.5-generation aircraft? I mean, is this 
something you would advocate? I know there are some folks who 
believe that the F-35 ought to be the way to go, and that ought 
to be accelerated. Can you tell us what your personal beliefs 
would be, your personal opinion would be of the best way to 
solve the problem?
    General Wyatt. I guess if the question were asked of me, 
how would you ensure----
    Mr. LoBiondo. I am asking that question.
    General Wyatt. Okay. How would you ensure that the Air 
National Guard can continue to perform the number one mission 
of the entire Department of Defense, and that is defense of the 
homeland, I would tell you that the Air National Guard would do 
the mission with whatever resources we could get.
    If the Air Force's plan does not cover the Air National 
Guard in recapitalization with fifth-generation fighters, we 
would turn to fourth-generation, 4.5-generation, as a possible 
alternative, recognizing that each of the options available has 
its pros, but it also has its down side, too. Service life 
extension programs would be an option. They are perhaps the 
cheapest option, but you never know what you are going to get 
into when you get inside of an airplane.
    And if we are going to do the service life extension 
programs, we need to consider that that product needs to get 
us--it would only be a bridging mission, or a bridging 
aircraft, if you would, to a future capability that we would 
need to get into.
    When we talk about fourth-generation fighters, we need to 
look beyond the airframe cost and think about the capabilities 
that that particular jet would need not just to do the ASA 
mission, which is mission number one, but also to not lose the 
efficiencies that the Air Guard provides in doing the homeland 
security mission, the ASA mission, but also the overseas fight.
    So if we do fourth generation buys, we would need to do 
that in conjunction with taking a look at the capability that a 
AESA radar offers, that the gateway communications comm, data 
link, making sure that the fourth-generation buy is compatible 
with the weapons systems of the fifth-generation fighter. And 
when you stack all of those together, we need to take a hard 
look at the cost of that platform and how it would compare to 
fifth-generation platforms.
    And a lot of that depends upon how many of the fourth-gen, 
how many of the fifth-gen fighters you would buy, because they 
are dependent--the price is dependent upon the total number. So 
it is a difficult question to answer without knowing where the 
Air Force is going and without knowing the current budget 
situation and how that will affect the fifth-generation buy.
    Mr. Abercrombie. When the budget then--and Mr. Gates' 
presentation--which is imminent--is presented, could you 
reconsider your answer and then send it on to Mr. LoBiondo and 
to the subcommittee?
    General Wyatt. I would be happy to, sir, with a little more 
fidelity to where the Department of Defense is going, yes, sir.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Abercrombie. You have got the question in mind?
    General Wyatt. Yes, sir.
    Mr. Abercrombie. Okay. And same, General Carpenter, if you 
have anything that you could add once Mr. Gates' proposal comes 
forward in the context that Mr. LoBiondo established, okay?
    We will go to Mr. Kratovil now, to be followed by Mr. 
Coffman and Ms. Tsongas.
    Mr. Kratovil. Gentlemen, thank you for being here today, 
and again, for your service to our country.
    General Wyatt, I want to ask you a question that is a 
particular concern in Maryland. As you know, Maryland's eight 
C-130's are being relocated, and Maryland and five other states 
were slated to receive the Joint Cargo Aircraft (JCA), but 
recent reports at least seem to indicate that that may not 
happen.
    What is the plan for the National Guard in terms of 
maintaining the capability of Maryland and those other states 
if, in fact, that comes to fruition?
    General Wyatt. The situation in Maryland is that they are 
one of the states that is scheduled to receive the Air National 
Guard component of the Joint Cargo Aircraft as it currently 
exists. And I don't know what the future will hold. I haven't 
seen any announced details. But the existing plan program is 
for the Air National Guard to get 24 of the JCA. Four of those 
would be bedded down in Maryland at Martin State.
    If that does not happen, we would look to, first of all, 
find some sort of bridge mission for the unit to keep the 
competencies of the pilots and the maintenance crews intact as 
long as possible. That is a perishable skill.
    And my concern, whether that is in the context of JCA or 
the fighter bathtub or tankers, if we don't have iron on the 
ramp for these units to fly, we will lose those treasures, if 
you will, because it takes a lifetime--it takes a generation to 
develop the skills, the expertise, the maturity of the Air 
National Guard.
    If we lose a platform at a particular location for a period 
of time, the unit atrophies. There is a possibility of other 
emerging missions that we could lay into Maryland, but without 
the acquisition of any additional iron, it might not be a 
flying mission. And when you lose those skill sets, it will 
literally take you a generation to develop it back to the level 
that it currently is.
    Mr. Kratovil. What would some of those bridge missions be? 
What are some of the likely possibilities?
    General Wyatt. We are seeing a continued demand in 
intelligence, surveillance, and reconnaissance (ISR) 
capability. We are seeing a continued demand in cyber. I think 
that is an area of great expansion: Irregular warfare. We are 
taking a look at different capabilities and perhaps platforms 
that might be attractive or necessary to fulfill our 
requirement for the United States Air Force.
    The demand for capability across the Air Force exceeds the 
Air National Guard's ability to supply that capability. We 
would need to--obviously there is a great training tail that 
would attach to that as we convert from one capability to 
another, and there would be a requirement for equipment. And if 
it does involve a new flying platform, obviously we would need 
the iron on the ramp for the folks to train.
    Mr. Abercrombie. That is it. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Abercrombie. Just before you do that, excuse me.
    Obviously we are going to have to have votes. I know Mr. 
Bartlett has a question he needs to ask. If it is okay, is it 
all right that we do that? Because I think this will--I don't 
think we will come back. We appreciate you being here. If you 
have other questions, submit them to me and we will get them to 
both generals.
    And we are going to have another hearing. This is the 
preliminary. This is a hearing for the bill itself, I assure 
everybody. So we will go to Mr. Coffman, and then if it is all 
right, we will go to Mr. Bartlett, and we will close.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Carpenter, you had mentioned that when Guard units 
go to Afghanistan, that they will fall on the equipment of the 
unit left behind. And sometimes I suspect, if they are part of 
the buildup in Afghanistan that is going to be going on now, I 
suppose they may be first in with their gear, leaving their 
gear for--could be a Guard unit, could be a regular Army unit, 
could be an Army Reserve unit.
    And you mentioned issues in accountability. What is the 
status now of Guard units? When are they going to get their 
gear back? How is that process going to work?
    General Carpenter. The process that we have in place right 
now in Iraq is something we call theater-provided equipment. 
And so the Guard unit deploys with not the full complement of 
equipment, but falls in on a set of equipment when it gets in 
theater, uses that equipment, and then, when they leave 
theater, they leave that theater-provided equipment in place.
    We don't have that large a set of what we call TPE, 
Theater-Provided Equipment, in Afghanistan. And by the way, the 
way we got the TPE in Iraq was for units to leave their 
equipment behind for use of the follow-on unit.
    Process for us in Afghanistan has been for a Guard unit to 
leave equipment for a Guard unit, and that has worked well. The 
issue for us, though, is that, when you transfer equipment 
between components, when you either leave equipment behind and 
lose possession of it or transfer it to an active Army unit, 
there is a DOD instruction called 1225.6, and that instruction 
requires that, before the equipment is transferred, that the 
equipment has to be directed to be left, and there has to be a 
payback plan in place, and that that agreement has to be signed 
off by the Secretary of Defense.
    We have not done any of that since the early days of Iraq, 
and frankly, we have a little ways to go in terms of putting 
those procedures in place. But as I mentioned earlier, we are 
working together with the Army. We think we have got a solution 
for this in terms of both the agreement and the signature by 
the Secretary of Defense (SECDEF). And so we are anxious to 
implement that if it is required.
    Mr. Coffman. Both General Wyatt and General Carpenter, in 
terms of aviation assets, where do you stand relative to your 
regular component in terms of modernization? I know, for 
instance, in the Colorado Air Guard, they are hoping to 
transition from the F-16 to the F-35.
    I have no idea where that discussion is. And I think in the 
Army Guard, I think that we still have units with Hueys, I 
think, UH-1s out in Colorado. Where do we stand in terms of 
modernization relative to our active duty component?
    General Wyatt. Regarding your question in the F-35, the 
most current plan that I have seen, the official plan that the 
Air Force has on recapitalization of Air National Guard F-16 
units, including Colorado with the F-35, has the fielding to 
the Air National Guard late to need, not coming to the Guard in 
time to solve the problem with Colorado and most of our other 
F-16 units. So it is late to need. We need to readjust the 
plan.
    As far as modernization, the Air National Guard has 
historically relied upon the Air Force to help us with 
modernization of our existing fleets. But occasionally, 
oftentimes, those modernization requirements aren't funded, and 
we rely heavily upon the National Guard and Reserve equipment 
account appropriations to do that.
    The targeting pods that your unit has in Colorado is a 
great example of that. Precision munitions delivery is a 
requirement of the combatant commands (COCOMS), and 
historically, the Air National Guard has not been funded for 
targeting pods. And so we have basically built up our fleet of 
targeting pods through the National Guard Reserve Equipment 
Account (NGREA) process.
    And so we are very appreciative. That is an example of how 
we use that fund to modernize and become integrated with the 
active duty components. But I hope that answers your question, 
Congressman.
    Mr. Abercrombie. Thank you.
    Mr. Coffman. One question, Mr. Chairman. What do you mean 
by the transition from the F-16 to the F-35 too late?
    General Wyatt. Yes, sir. I don't have the waterfall charts 
with me here, but most of our F-16 units, as I said, begin to 
lose their service life over the next eight years. And the last 
bed-down plan that I have seen from the United States Air Force 
regarding F-35, other than one unit in the first four bed-down 
plans--OFPs, we call them--there is only one Air National Guard 
unit in there.
    The bulk of the Air National Guard recapitalization in the 
F-35 occurs in the out years, approaching 2022 and thereafter. 
Most of our units age out in the 2017 to 2018 timeframe. And so 
most of our units are uncovered under their current plan.
    As I indicated at the beginning, the Air Force has the 
capability of covering that fighter gap by reworking their bed-
down plan to include the Air National Guard earlier in the bed-
down as they acquire airplanes. The numbers are extremely 
critical, and the rate of production is extremely critical.
    So we will need to see what shakes out in that regard 
before I could more fully answer your question. But right now, 
under the current Air Force plan, the Air National Guard is 
basically uncovered.
    Mr. Abercrombie. Thank you.
    Mr. Coffman. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Abercrombie. Yes, right on it.
    I want to extend my gratitude to Mr. Fleming, Ms. Gifford 
and Ms. Tsongas, and we will go to Mr. Bartlett, and this will 
be the final question and observation.
    Mr. Bartlett. Mr. Chairman, I will be very brief, because 
the vote clock is running.
    As I remember history, I think that the Army and the Air 
Force both expressed the need for a small in-theater cargo 
aircraft. A decision was made that that should be a joint 
procurement, and the Air Force, more than a bit reluctantly, 
was kind of pulled kicking and screaming into this joint 
procurement of the Joint Cargo Aircraft with the Army.
    Knowing that history, I was more than a bit confused when 
the Secretary in his press statement said that, from now on, 
that program was going to be totally an Air Force program, who 
didn't want the program to begin with, and that the Army is 
going to get much fewer aircraft.
    My first question is, are you aware of any analysis that 
was done prior to making the decision to reduce the Army's 
stated need of 78 aircraft down to 38 aircraft? Was there a 
study that indicated that? If the answer is no, just say no.
    General Wyatt. You are right, sir. The requirement, as 
expressed by the JROC, the Joint Requirements Oversight 
Council, is 78 C-27s. I am not aware of any other subsequent 
studies.
    Mr. Bartlett. Thank you.
    With the retirement of the C-23 Sherpa, without the Joint 
Cargo Aircraft to support the Guard's mission in theater, what 
are you going to do?
    General Wyatt. The Air National Guard was not part of the 
Air Force that was kicking and screaming on avoiding this 
mission. We welcome the mission, and we will do it with 
whatever number of airplanes we are allowed.
    But the question is not necessarily the color of service 
flying the airplane, but the question is how do you sustain the 
requirement, which I understand is currently 16 to 18 airplanes 
in theater, with a number less than 78. And in my opinion, you 
have to have 78 airplanes, as the JROC study indicated, to 
sustain the number of airplanes anticipated to be deployed 
continuously in theater regardless of who is flying it and who 
is maintaining it.
    Mr. Bartlett. So, without the 78, we really are going to be 
hard-pressed to meet our needs in theater.
    Back home here, with the C-23 being retired, what are the 
plans without the C-27J to support the Guards at home, national 
homeland security and disaster preparedness relief missions? If 
we can't even meet our requirements over there, is there going 
to be nothing left here?
    General Carpenter. Sir, from an Army perspective, a couple 
items I would like to point out.
    There are 42 C-23s within the Army National Guard right 
now, and the mission is in Iraq for the C-23s right now, 
performing the responsibility of getting the cargo to the last 
tactical mile. And over the last five years, that has been 
exclusively an Army National Guard mission.
    We have hauled 180,000 soldiers, passengers, carried 62 
million tons of cargo. And in Hurricane Katrina, we had almost 
all of our available C-23s were involved in that particular 
mission.
    Our concern was is that the Joint Cargo Aircraft was the 
modernization program for the C-23s. We expect the C-23's 
lifespan to be over in about five years. And so we have got 
five years to solve this problem, is the bottom line, with 
regard to replacement for that capability within the United 
States, both in the homeland mission and in Iraq.
    It is not a pressurized aircraft, so that aircraft is not 
available for use in Afghanistan. So we have got a couple 
problems we have got to face.
    Mr. Bartlett. Thank you for your answers. I was more than a 
bit confused, as I stated, when the Secretary made this 
statement. And I gather that there is some concern about our 
ability to meet our commitments in the future if this aircraft 
is not available.
    And I thank you very much, Mr. Chairman, and thank you.
    Mr. Abercrombie. Yes. Thank you, Mr. Bartlett.
    Obviously, the presentation to be made by the Secretary and 
the particular elements with which you are associated is going 
to be crucial to our decision-making on the defense bill.
    So if you could take today's hearing as kind of a baseline 
for some of the answers and observations, if you could share 
them then at that point with us, we are going to send you some 
questions, as well, that have arisen as a result of this, 
including some from Ms. Giffords and others.
    And if we could get that back perhaps--not necessarily 
tomorrow or the next day, but when you have had a chance to 
answer them in the context of Mr. Gates' presentation, then I 
think we will be able to have a very fruitful and beneficial 
effect on the defense bill. You have friends here in this 
subcommittee and on this committee, I can assure you.
    And with that, I thank you all, and we will bring the 
hearing to a close.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 5, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 5, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3570.001
    
    [GRAPHIC] [TIFF OMITTED] T3570.002
    
    [GRAPHIC] [TIFF OMITTED] T3570.003
    
    [GRAPHIC] [TIFF OMITTED] T3570.004
    
    [GRAPHIC] [TIFF OMITTED] T3570.005
    
    [GRAPHIC] [TIFF OMITTED] T3570.006
    
    [GRAPHIC] [TIFF OMITTED] T3570.007
    
    [GRAPHIC] [TIFF OMITTED] T3570.008
    
    [GRAPHIC] [TIFF OMITTED] T3570.009
    
    [GRAPHIC] [TIFF OMITTED] T3570.010
    
    [GRAPHIC] [TIFF OMITTED] T3570.011
    
    [GRAPHIC] [TIFF OMITTED] T3570.012
    
    [GRAPHIC] [TIFF OMITTED] T3570.013
    
    [GRAPHIC] [TIFF OMITTED] T3570.014
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 5, 2009

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. LOBIONDO

    General Wyatt. Air Sovereignty Alert (ASA) is not solely an Air 
National Guard (ANG) mission; it is a Department of Defense 
responsibility and we should keep that in mind when discussing its 
future. The Air National Guard has fit well in this mission set because 
of the inherent cost effectiveness of our force. That being said, the 
ANG will ultimately accept any solution that allows us to continue 
supporting ASA and our other Air Force missions in the most effective 
manner possible. Specifically for the ASA mission we see two primary 
ways to mitigate impending capability shortfalls--concurrent and 
proportional recapitalization with fifth generation aircraft, and/or 
service life extension and modernization programs for our current 
fleet.
    Our first choice, for providing both ASA and interoperable 
capabilities to Aerospace Expeditionary Forces, would be to accelerate 
fielding in the ANG of fifth generation fighters. Our analysis predicts 
that if the ANG can recapitalize six units by FY17 we can minimize the 
impact of the fighter gap. While we would prefer all six of these units 
to be recapitalized by fifth generation aircraft, we recognize that 
planned procurement rates (80/year) make this unlikely. At a minimum, 
however, if three of those units were replaced with fifth generation 
aircraft and the remaining three received newer fourth generation 
fighters as the active component units receive the F-35, we could still 
provide world class capability at home and abroad with no interruption.
    If fifth generation recapitalization is significantly delayed, our 
next course of action would be to extend the life of our current fleet 
and modernize its sensor and defensive systems. The goal of such a 
program would be to extend the life of our legacy fighters to better 
match the procurement schedule of the F-35. The magnitude of a service 
life extension program would be proportional to the magnitude of any 
fifth generation delays. A minor delay might only require the Service 
Life Extension Program (SLEP) and modernization of a small portion of 
the fleet, while major delays would necessitate the--much more costly--
extension and modernization of a major portion of the fleet.
    You specifically asked about my opinion with respect to a 4.5 
generation solution. While I will not completely rule out that option, 
I ultimately feel that it must be considered only as a last resort if 
the previously mentioned options become impossible. As my time as an A-
7 pilot--watching the Gulf War from Tulsa, Oklahoma--taught me, the 
interests of the nation are best served when the ANG and USAF operate 
and maintain the same equipment.
    Based on the current budget picture and the Air Force's new basing 
process, I firmly believe that concurrent re-capitalization of ANG 
fighters with the F-35 or a SLEP to meet the F-35 production schedule 
are the most viable options. These options will offer both near-term 
and long-term solutions that ensure the ANG will have sufficient assets 
capable of defending the homeland and contributing to air expeditionary 
operations overseas. [See page 18.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 5, 2009

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. The Commission on the National Guard and Reserves 
noted that the reserve components are now an operational reserve, 
although the Department of Defense's business processes and the Army's 
strategies for equipping and staffing its reserve components are not 
designed to support the new operational roles. a. Could you comment on 
what changes have been made in the way the Army equips reserve forces 
to accommodate the operational role. b. What is the status of the Army 
National Guard equipment inventory? Is it worse, about the same, or 
better than last year, and what was the reason for the change? c. Has 
any progress been made on improving visibility of tracking equipment 
requirements through budget preparation and review, appropriations, 
funding allocation and ultimately in the distribution of new equipment? 
d. Do the equipping and manning strategies for the National Guard's new 
operational role also take into consideration the strategic reserve 
role the National Guard has historically played? For example, do 
National Guard units that are not immediately deploying have sufficient 
equipment to perform domestic missions and serve as a strategic reserve 
should new global demands unrelated to the current operations in Iraq 
and Afghanistan emerge? Are there reserve units dedicated to a 
strategic reserve role and, if so, how are they equipped?
    General Wyatt and General Carpenter. Answer 1a. Under the strategic 
reserve construct, the Army National Guard (ARNG) was equipped using 
tiered-readiness. Little equipment trickled to the ARNG during this 
time. Under the operational force construct, the ARNG is equipped in 
parity with other components under the cyclic readiness paradigm.
    Answer 1b. Army National Guard Equipment On Hand levels have 
increased approximately 2 percent over the past year. Although upon 
initial observation this may seem like a miniscule change in light of 
all of the resources provided for equipment it is not. The equipment 
inventory is not only being filled, but also being modernized-new 
equipment replacing legacy. Additionally, increased requirements due to 
a transforming and modularizing force gives the mistaken perception 
that the equipment position of the Army National Guard is not 
strengthening.
    Answer 1c. The Army has made great progress in this area during the 
past year and they are now tracking large programs to the level of 
detail necessary for full transparency. However, the process is 
currently labor intensive and more work is needed to automate the 
process and expand it to all items of equipment. Furthermore, the 
Army's transparency effort uses FY09 as a baseline and there is very 
limited visibility of funds and equipment still in the pipeline from 
prior years. Therefore, it will likely be FY11 before the Director Army 
National Guard will be able to testify that he has full visibility 
based on budgeted programs.
    Answer 1d. The Army National Guard has indicated that in order to 
train effectively, support the current warfight, surge when called 
upon, and provide a robust domestic response, it is absolutely critical 
to be equipped to 100 percent of its Critical Dual Use equipment 
requirement. The Army's new equipping strategy plans to procure enough 
equipment to fully equip all units, but recognizes that some of this 
equipment will not be available to these units due to ``friction'' 
(equipment in Reset, equipment in transit, Theater Provided Equipment, 
etc.). The Army National Guard equipping priorities have named/known 
deployers, CCMRF, CSA RESET Test Pilot, hurricane states and likely 
deployers at the top of the list. These units are the priority to 
receive equipment. Non-deploying Modified Table of Organization and 
Equipment and Table of Distribution and Allowance units will receive 
equipment distributions only after the higher priority units have been 
fielded equipment.
    Mr. Abercrombie. Background: To implement the Army's transition to 
an expeditionary force, the Army has adopted a cyclical readiness 
cycle, called the Army Force Generation Model (ARFORGEN) intended to 
put National Guard units through a structured cycle of increasing 
readiness that will enable forces to be ready and available for 
deployment on a predictable basis--with a goal of deployment 
availability 1 year out of six. The Army has yet to develop the 
specific training, staffing, and equipping standards for each phase of 
the model. Initially, the Army said that National Guard forces would 
have a minimum baseline set of equipment at all phases of the cycle for 
training and responding to domestic missions, and that additional 
equipment sets would be available to units for training as they neared 
deployment. a. Has the Army identified the equipment that National 
Guard forces can expect in their baseline, training, and deployment 
sets of equipment? b. If not, what is the impact on the National 
Guard's ability to train for overseas missions and respond to domestic 
emergencies?
    General Wyatt and General Carpenter. Answer 2a. The Department of 
the Army and other stakeholders have discussed the baseline equipping 
requirements. All are in agreement that 100 percent equipping is the 
goal, but there are realities in certain types of operations that 
bridging strategies to address shortages must be developed under the 
Army Force Generation (ARFORGEN) umbrella to mitigate those shortages. 
No fixed equipping level has been agreed upon, but we can expect that 
with the influx of projected equipment to the Army National Guard that 
equipping levels will increase for each of these pools of units.
    Answer 2b. The Army National Guard has continued to support 
overseas contingency operation by mobilizing and deploying forces in 
the highest possible state of readiness to successfully carry out 
domestic and overseas missions. This is accomplished by managing and 
prioritizing limited resources using the Army Force Generation 
(ARFORGEN) model in support of the National Military Strategy. The dual 
mission of the Army National Guard necessitates a level of continual 
readiness and employability unlike that of its active component 
counterparts. We have historically cross-leveled equipment between 
States to ensure that training and domestic response missions are 
accomplished. As our Equipment On Hand (EOH) improves, cross-leveling 
actions are minimized.
    Mr. Abercrombie. In accordance with the ARFORGEN model, the 
Department of Defense has changed its readiness strategy for the 
reserve from training to deployment standards after mobilization 
(mobilize-train-deploy) to increased training to make forces deployable 
before mobilization (train-mobilize-deploy). The Army has stated the 
goal of equipping reserve forces with 100 percent of their required 
equipment, but the timeline to reach that goal stretches past 2019. The 
National Guard and Reserve Equipment Report (NGRER) for FY 2009 
included a cascade of $11.6 billion in equipment from the regular Army 
to the Army National Guard as part of the National Guard's plan to 
reach 100% on hand by 2019.
    a. How does the Army plan to equip National Guard forces for the 
new train-mobilize deploy concept?
    b. Does the Army National Guard have the full time support needed 
to ensure that the increased training and equipment maintenance 
activities needed to increase readiness are completed before 
mobilization?
    c. How much of the equipment does the National Guard have that is 
obsolete and cannot be deployed?
    General Wyatt and General Carpenter. Answer 3a. Named/known 
deployers and units likely to deploy are at the very top of the Army 
National Guard equipment prioritization list. A mix of new equipment 
fielding and equipment cross-leveling actions will be taken to prepare 
units for deployments.
    Answer 3b. The Army National Guard's base budget funds 72 percent 
of our strategic reserve full time support requirements. The peacetime 
strategic reserve requirements do not take into consideration the 
increased readiness needed during the ARFORGEN model to support 
contingencies. Currently the Army National Guard is using Full time 
Equivalents (FTE), such as ADOS, Temporary Technicians, and Contractor 
support, to meet these pre-mobilization contingency mission 
requirements which are funded in the Overseas Contingency Operation 
Supplemental funding bill.
    Answer 3c. Despite the level of funding programmed in the current 
Future Years Defense Program, ARNG equipping and modernization issues 
remain. Fielding of new equipment and cascading of newer equipment has 
improved the equipment inventory posture of the Army Guard and allowed 
displacement of the oldest systems. However, the requirement to be 
interoperable with modern communications and command and control 
systems and to protect the force leaves significant gaps in deployable 
equipment. The Army Guard has currently fielded only 22 percent of the 
Warfighters' Information Network--Tactical (WIN-T) equipment and the 
Army Battle Command System (ABCS) is critically short for deployments 
as well. Concurrently, significant portions of the Army Guard fleet are 
not capable of accepting uparmoring kits. The ARNG is currently 
scheduled to receive about 21,000 of its 30,000 Family of Medium 
Tactical Vehicles (FMTVs) by fiscal year 2015, but only about 10,000 
are on-hand today. The 9,000 vehicle 2015 shortfall alone equates to 
about a $3.7 billion shortfall in funding. Concerning light tactical 
vehicles, the Army Guard has 84 percent of the 46K currently required, 
but 88 percent of the on-hand HMMWVs are generally of the original 
design and cannot accept armor kits.
    Mr. Abercrombie. Background: GAO reported that Army National Guard 
forces that deployed to the Iraq theater of operations in 2002 and 2004 
were asked to leave their equipment in theater for follow-on forces to 
use. When the reserves are asked to transfer their equipment to the 
active Army, the Army is required by law to notify the reserve as to 
how and when their equipment will be replaced (called pay-back plans). 
As of last year, of the approximately 30 plans required, only 3 had 
been provided to the Army Guard. a. What is the status of the payback 
plans the Army is required to provide the reserve components? b. If the 
Army has not provided payback plans, what do the units who left the 
equipment overseas use for training? c. How have other Army 
initiatives, such as its reset activities, affected National Guard 
equipment readiness?
    General Wyatt and General Carpenter. Answer 4a. The Army National 
Guard left approximately $3.1 B worth of equipment in theater. Of that, 
approximately $300M is equipment that is now obsolete or excess due to 
changes in authorization documents. Army G8 submitted and received $1.7 
B in FY07 Supplemental to begin pay back to the Army National Guard. In 
FY08, the Army National Guard and the DA G8 agreed on a final $1B which 
was to be included in FY10 Overseas Contingency Operation request. We 
believe that only about $700M these funds were actually included in the 
request and only about $455M of this was validated by OSD. Despite the 
inability to trace the funds through the procurement cycle, the Army 
National Guard continues to receive equipment at an unprecedented rate.
    Answer 4b. To ensure units are trained and equipped for overseas 
missions, the Army National Guard continues to cross-level equipment to 
fill critical shortages.
    Answer 4c. Overall, reset maintenance is working within the 
allotted 365 day reset period. There are issues working, but nothing 
that is critically detrimental to the reset program. Issues are mostly 
with systems or programs. One such issue is with the Automatic Reset 
Induction (ARI) requirement. When ARNG equipment is inducted into ARI 
above and beyond the authorized Modified Table of Organization and 
Equipment (MTOE), Army Material Command (AMC) equipment managers are 
only willing to return the amount of equipment that is authorized by 
MTOE. ARNG units are almost exclusively deploying based off of Mission 
Essential Equipment Lists (MEEL) in lieu of MTOE authorization and 
often times the MEEL requires more equipment than the unit's MTOE which 
is cross-leveled from other units/States to fill the requirement DA G8 
Synchronization Staff Officers (SSO) and AMC equipment managers use the 
MTOE to determine fill of equipment payback and will only return to the 
unit the amount of equipment that is authorized, thus, the extra 
equipment that was cross-leveled to fill the MEEL is lost to the ARNG.
    Mr. Abercrombie. Background: Army National Guard troops deploying 
since the build up of forces in Iraq have been counting on equipment 
that is already in theater to become deployment-ready. As the fight 
transitions to operations in Afghanistan, there is no equipment to fall 
in on, and the situation could be like the beginning of Iraq operations 
where reserve components were asked to leave their equipment. After a 
few years of improving equipment levels the National Guard has had to 
use for training and domestic missions, its domestic equipment 
readiness could begin to decline again. a. How does the Army intend to 
equip reserve forces for Afghanistan? b. How the shift to Afghanistan 
will affect equipping for domestic missions?
    General Wyatt and General Carpenter. Answer 5a. Equipment is being 
cross leveled in theater. The impact should be minimal. We believe the 
number of units may be constant. They will just be remissioned. The 
Army National Guard requested that the Army G3 and theater develop the 
requirement for ``theater provided equipment,'' and let the Guard know 
their fair share. The Army should then follow the Department of Defense 
Directive 1225.6 process and get the Secretary of Defense approval with 
payback plan prior to establishing the pool.
    Answer 5b. Thanks to the significant support of Congress, and the 
hard work done by the Army and the Army National Guard to fully equip 
and modernize our organization, our equipment levels have significantly 
improved. Until such time as we are equipped at 100 percent the Army 
National Guard will continue to cross-level equipment to ensure all 
missions are accomplished.
    Mr. Abercrombie. GAO has reported that the National Guard's 
readiness for responding to large-scale domestic emergencies is unknown 
because of the lack of analytically-based requirements that would need 
to be developed by the Department of Defense in conjunction with the 
Department of Homeland Security. The Army National Guard has taken the 
initiative to identify critical equipment items its units need for 
overseas missions that are useful for domestic missions. a. How did the 
National Guard develop this list and is it linked to the 15 national 
planning scenarios set out by the Homeland Security Council? b. Have 
the Department of Defense and the Department of Homeland Security 
validated this list? c. Does the list take into account capabilities 
that the states might have outside the National Guard or that are 
available in the region so that efficiencies can be achieved?
    General Wyatt and General Carpenter. Answer 6a. The Critical Dual 
Use equipment list is a list of the equipment that serves a critical 
role in both Homeland Defense and Defense Support to Civil Authorities 
missions and operations on the battlefield. The basis of this list was 
Modified Table of Organization and Equipment (MTOE), Table of 
Distribution and Allowance (TDA) documents of Army National Guard 
units. The equipment that comprises this list spans the wide spectrum 
of equipment in the Army National Guard to include trucks, command and 
control, and helicopters. It is linked to the 15 scenarios in as much 
as the equipment supports the full spectrum of Homeland Defense/Defense 
Support to Civilian Authority missions from floods to pandemic flu to 
terrorist attacks.
    Answer 6b. Department of Army approved the list in 2005. For 2009, 
the Army National Guard is once again staffing an updated proposed 
list. The Department of Defense and Joint Staff are aware of the list 
and we provide status of equipment on hand of critical dual use to them 
as required.
    Answer 6c. The list of Critical Dual Use items was originally 
developed as a simple metric to assess the ability of the ARNG to 
perform domestic missions. The equipment on this list is based on the 
Modified Table of Organization and Equipment and Table of Distribution 
and Allowance documents of the Army National Guard; therefore, it is 
not state/territory-specific. It is not additional equipment over and 
above authorization.
    Mr. Abercrombie. What analysis was done to ensure that U.S. Army 
and U.S. Air National Guard's needs are met in-theatre without the C-
27J?
    General Wyatt and General Carpenter. The Direct Support time 
sensitive/mission critical requirements are not adequately being met. 
The use of CH-47 rotary wing aircraft and contract airlift support 
aircraft is unsustainable over time and does not fully address the 
capability gap that exists for fixed wing in the theater direct 
support. Current projections are to have a C-27J Air Force capability 
in theater in the early FY 11 timeframe. The Air Force overtime will 
increase C-27J capability to better meet the theater requirements. The 
insertion of C-27J aircraft will relieve the CH-47 fleet and aircrews 
and negate the need for contract airlift support.
    The requirements process is driven by the Combatant Commanders and 
it is my understanding that the C-27J will enable the Air Force to 
provide our Combatant Commanders with critical Direct Support 
capability. The only studies I am aware of involving the procurement of 
the C-27J are the Army's 2005 Analysis of Alternatives and the Air 
Force's December 2007 Force Mix Analysis, and the 2009 Air Force 
Mobility Capabilities Requirements Study.
    Mr. Abercrombie. Please provide the planned force structure, by 
base, unit, for approximately 190 F-22 aircraft.
    General Wyatt. The Air Force has publically stated the planned 
basing for the F-22 is Langley AFB, VA, Elmendorf AFB, AK, Holloman 
AFB, NM and Hickam AFB, HI. Training will be conducted at Tyndall AFB, 
FL.
    Mr. Abercrombie. With the proposed reduced buy of aircraft, how 
does the U.S. Army National Guard plan to meet the increased Homeland 
Security and Disaster preparedness relief missions?
    General Carpenter. The Army National Guard Aviation response to 
Homeland Security and disaster relief missions has increased over the 
last several years. Both Fixed Wing and Rotary Wing aircraft are used 
to ensure successful responses. The decision not to field 48 Joint 
Cargo Aircraft in the Army National Guard significantly reduces that 
response capability. To meet the increased Homeland Security and 
disaster relief missions the National Guard will use all available Air 
National Guard and Army National Guard airlift assess that are in a 
mission capable maintenance status and are not deployed. These include 
the Air National Guard C-130s, the 38 C-27Js programmed for the Air 
National Guard, and the Army National Guard CH-47s. The 42 Army 
National Guard C-23s also will provide response capabilities if the 
Army decides to retain that fleet. Adequate Rotary Wing Homeland 
Security and disaster relief response requires intensive management. 
While there are over 1300 helicopters in the ARNG, deployments and 
maintenance requirements reduce the number of helicopters available to 
the Governors to about 440 (325 modernized and 115 legacy) at any given 
time--an average of 6 modernized aircraft per State, Territory, and 
District.
    Mr. Abercrombie. If the reduced number of C-27Js are deployed what 
is available to backfill the National Guard's at-home requirements?
    General Carpenter. The Army National Guard C-23 aircraft 
complemented by Air National Guard lift capability (such as the C-130) 
can meet the National Guard's at-home air lift requirements. However, 
the decision to transfer the Joint Cargo Aircraft program and the 
direct support mission to the Air Force leaves unanswered questions 
about the longevity of the Army National Guard C-23 aircraft. The Army 
National Guard at least in the near term (thru FY 12), expects to 
retain the C-23 aircraft, but future funding to extend the life of the 
C-23 or replace it has not been decided.
    The C-27J will enable the Air Force to provide our Combatant 
Commanders with critical Direct Support capability. The Air National 
Guard believes this added capability is above and beyond our current 
airlift capacity and will have little impact on our availability to 
support ``at-home'' requirements. We will continue to work with the 
Services and with OSD to ensure there is adequate capability available 
to fulfill the nation's domestic needs.
    Mr. Abercrombie. What is the impact on the CH-47 fleet if there 
will now not be fixed wing asset replacement?
    General Carpenter. When CH-47s are diverted from traditional rotary 
wing tactical missions to direct support fixed wing airlift missions 
the impacts on the CH-47 fleet and aircrews are significant and 
unsustainable. The CH-47 helicopter is best suited for vertical take-
off and landing missions with shorter operating ranges. Continued use 
of the CH-47 fleet to fill the direct support fixed wing mission gap is 
more expensive due to higher maintenance costs and operationally more 
complex because intermediate refueling stops are needed. The CH-47 
fleet will not be relieved of the Direct Support airlift role in 
Afghanistan until the Air Force and Air National Guard can begin C-27J 
operations in Afghanistan in FY11 and then increase the C-27J presence 
to sufficient levels.
    Mr. Abercrombie. In your opinion, do the C-23B Sherpas need to be 
replaced? If the Army does not get the C-27J, what is the replacement 
plan for the C-23B?
    General Carpenter. Given the OSD decision to transfer the Joint 
Cargo Aircraft program to the Air Force, there is no replacement plan 
for the C-23B. Based on combat theater experiences since 2003 and the 
significant contribution of support provided by the C-23 fleet directly 
to the ground Commander and Soldiers, the Army National Guard believes 
the Army must reassess its future requirements for fixed wing 
capability. That reassessment would potentially include a modernization 
path for the C-23 mission and confirm the C-23 light cargo mission 
along with the fixed wing utility mission are a core Army Aviation 
competency.
    Mr. Abercrombie. Currently the ARNG is flying the C-23B Sherpas in 
direct support of Army units in Iraq--with the plus up of Army forces 
in Afghanistan, is the C-23 the right fixed wing STOL aircraft to 
provide direct support to those ground forces? Is the C27J?
    General Carpenter. The Army National Guard's C-23B is not the right 
aircraft to provide direct support to Army forces in Afghanistan. The 
aircraft is unpressurized and lacks the high altitude performance 
needed to operate in the mountainous terrain of Afghanistan. The C-27J 
is the right aircraft to meet the STOL requirements in the mountainous 
Afghanistan theater and was specifically selected to fill the 
capability gap that currently exists with the C-23s. The STOL and 
direct support requirements related to Army missions being met by the 
CH-47 aircraft and contract airlift support are unsustainable over 
time.
    Mr. Abercrombie. What fixed wing STOL aircraft are currently 
supporting Army units in Afghanistan?
    General Carpenter. The Army is currently being supported by a 
combination of Army CH-47 helicopters and contract airlift support. The 
Air Force plans to deploy a C-27J capability into the Afghanistan 
theater in early FY 11 to meet the Army's STOL aircraft requirements.

                                  <all>

</pre></body></html>
